                                                                 U.S. Department of Justice

                                                                 United States Attorney
                                                                 District of Connecticut
                                                     Connecticut Financial Center
                                                     157 Church Street                     (203) 821-3700
                                                     P.O. Box 1824                    Fax (203) 773-5376
                                                     New Haven, Connecticut 06510   www.usdoj.gov/usao/ct


FOR IMMEDIATE RELEASE                                CONTACT:           Tom Carson
August 23, 2005                                                         Public Information Office
                                                                        (203) 821-3722
                                                                        (203) 996-1393 (cell)

         WALLINGFORD CONCRETE COMPANY IS SENTENCED
          Highway subcontractor agrees to pay $500,000 for making false statements

       Kevin J. O’Connor, United States Attorney for the District of Connecticut, announced
that UNITED CONCRETE PRODUCTS, INC. of Wallingford, Connecticut, was sentenced
today by United States District Judge Stefan R. Underhill in Bridgeport. On May 16, 2005,
UNITED CONCRETE PRODUCTS, INC. waived indictment and pleaded guilty to a one-count
Information charging the company with false statements. Judge Underhill today ordered
UNITED CONCRETE PRODUCTS, INC. to pay a fine in the amount of $1000 and imposed no
period of probation.
       UNITED CONCRETE PRODUCTS, INC. was subject to five years of probation and a
fine of up to $500,000. Prior to today’s sentencing, the U.S. Attorney’s Office and UNITED
CONCRETE PRODUCTS, INC. entered into a settlement agreement that satisfied the
corporation’s criminal and civil liabilities. UNITED CONCRETE PRODUCTS, INC. agreed to
pay $500,000 to the Government, to be apportioned between the fine the Court imposed and
payment to the United States Department of Transportation. As a result, the company will pay
$499,000 to the U.S. Department of Transportation.
       According to statements made in court, in 2001, UNITED CONCRETE PRODUCTS,
INC. manufactured concrete drainage assemblies, such as catch basins, for several prime
contractors, including L.G. DeFelice, Inc., that performed work on the Bridgeport corridor of
Interstate 95 under contracts with the Connecticut Department of Transportation (“Connecticut
DOT”). Connecticut DOT specifications for the drainage assemblies included steel supporting
rods imbedded in the concrete, and UNITED CONCRETE PRODUCTS, INC. was required to
certify, on Connecticut DOT form MAT-073 entitled “Certification of Precast Concrete
Products,” that the assemblies that it was providing conformed to Connecticut DOT’s
specifications. Because approximately 90 percent of the cost of the Bridgeport corridor
construction was born by the United States Department of Transportation, the certifications were
subject to review by it, as well as by Connecticut DOT.
       On October 1, 2001, UNITED CONCRETE PRODUCTS, INC. sent to L.G. DeFelice
one shipment of several drainage assembly components accompanied by a signed MAT-073
certifying that the components conformed to Connecticut DOT specifications. In fact, those
components did not conform to specifications because they lacked the reinforcing steel, a fact
that was known to UNITED CONCRETE PRODUCTS, INC. management at the time.
       “This prosecution should serve as a wake-up call to all government contractors that
receive federal funding,” U.S. Attorney O’Connor stated. “Perform the work and install the
products required or you will be held accountable in federal court.”
       U.S. Attorney O’Connor noted that, as a result of this prosecution, UNITED
CONCRETE PRODUCTS, INC. has made significant improvements to its quality control
procedures.
       U.S. Attorney O’Connor also stated that, according to Connecticut DOT, the
nonconforming drainage assemblies do not present a safety hazard to the traveling public.
       This case was investigated by the United States Department of Transportation, Office of
the Inspector General. The case was prosecuted by Assistant United States Attorneys William
A. Collier and Calvin B. Kurimai.
                                               ###
